l

«

No.

go

■c y; cJ; u'
Supreme Court, U.S.
FILED

m I k 2321
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE HECTOR MANUEL TORRE-5- PETITIONER

(Your Name)
vs.
THE STATE OF TEXAS

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE COURT OF CRIMINAL APPEALS OF TEXAS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

HECTOR MANUEL TORRES

#1123769

(Your Name)
3872 FM 350 SOUTH

POLUNSKY UNIT

(Address)
LIVINGSTON,

TEXAS 77351

(City, State, Zip Code)

RECEIVED
N/A

(Phone Number)

JAN 29 2021

QUESTION(S) PRESENTED

In Ghaidez V UnitedkStages.56B U . S . 342( 2023 ) this court decided that
Padilla V Kentucky , dis not apply retroactive and announced a new
rule. This decision brings up a question of a constitutional magnitude
as to determine whether the ruling by this court deprive certain
people of the right to equal nprotection, by allowing a defense counsel
to withhold a vital fact surrounding a plea bargain to a certain
group of people, which is a direct denial of a constitutional right
to effective assistance of counsel, when the Sixth Amendment as well
as Strtickland V Washington, existed at the time this court decided
Padilla,' which now brings to question before thfegcourt.
At the time of the plea proceeding did petitioner have protection
of the Fourteenth Amendment's equal protection clause, or was
he not entitled to it because of his nationality which deprives
his of the same right as other defendants during his plea bargain
proceeding?

i.

LIST OF PARTIES

£ X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

ii .

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5.

CONCLUSION

8

INDEX TO APPENDICES

APPENDIX A

copy

0F

the court of criminal appeals dismussial

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

iii .

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

CHAIDEZ V UNITED STATE356BU.S.342(2013)

5,6

CITY OF CLEBURN V ClEBURN LIVING CENTER,476 U . S . 4 3 2 (1 9 B 5 ) . . 5
hiLL

v Lockhart 474

u.s.52(19B5).........................................................

MAYABB V JOHNSON 16B F.3d B63(5th Cir.3011)...
PADILLA V KENTUCKY 559 U.S.256(201 0)....................
QUTBY V STRAY U55 11 F.3d 4BB(5th C-ir . 1 993 ) . . . .
BONNIER V QUARTMAN, 467 F.3d 349(5th CIR.2007)
STBIBKdSNDNO M WASHINGTON 466 U.S . 66B(19B4) . . .
TEAGUE \l LANE 4B9 U . S . 2BB (1 989 )........... ...................
WILSON V BIRNBERG 660 F.3d 206(5th CIR.2011)..

STATUTES AND RULES
EQUAL PROTECTION OF THE LAW, FOURTEENTH AMENDMENT

OTHER

iv.

7
5,6,7
7
5,6
5,6
5,7

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[$] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix___A_to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix fl

12/2/2020

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

FOURTEENTH AMENDMENT:
THE FOURTEENTH AMENDMENT PROVISION REQUIRING THE STATES TO
GIVE SIMULARLY SITUATED PERSONS, OR CLASS SIMULAR TREATMENT
UNDER THE LAW

SIXTH AMENDMENT:
... HAVE THE RIGHT TO HAVE ASSISTENCE OF COUNSEL.

3.

STATEMENT OF THE CASE
This case involves a plea bargain, which petitioner was sentenced to Fifty-Years in prison for the offense of Sexual Assault C/H,
and prior to agreeing to plead guilty to t:je offense, he was not
informed of the fact that he would also be deported as a result.
Petitioner would not have plfead guilty had he known he would fact
deportation. The defense counsel,failed to inform petitioner of that
]fact which he has challenged this in the state court who simply
denied his habeas application without a written order. Now his asking
this court whether he had the same right's to know all that would
result for his guilty plea, which would have allowed him to make an
intellegent decision.
Petitioner first sought relief be filing an Application fo Habeas
Corpus relief under art. 11.07, the District Court, failed to make
a finding on the federal question and forwarded the question to the
Texas Court of Criminal Appeals, whic dismissed the question with­
out a written order under 11.07 sect 4. The question was properly
presented to the court as petitioner becams knowledgable of the
facts as presented.

4.

REASONS FOR GRANTING THE PETITION
Petitioner sought relief pursuant to this court decision in Padilla
\l Kentucky, 55 9 U.5.356,130 S.Ct.1473(2C10)The court denied relief
based of a decision in Cha,jdez .V United States , 56B 0.5.342 ( 201 3).
In Chaide? the court determined that Padilla did not apply retro­
active, and was a new rule pursuant t o Teagaip M U a n e , 4 8 9 U.S.2B8(1989).
The decision was unfair because it was not in good faith. It denied
a certian group of people of theuiright to "Equal Protection" by the
court making it clear that at the time of it's decision in Padella
the right to at that time given to certain people to have the right
to effective assistancemf counsel. Equal protection! of the law is
not an abstract right but is a command which the states must respect
the equal protection clause requires that all persons similarly sit­
uated should be treated alike. City Cf Cleburn Tex. V Cleburn Living
Center ,473 LI . S . 4 3 2,4 3 9,1 □ 5 S . C t . 3 24 9 (1 9 8 5 ) . The petitioner in this c
case was singled out~Efoa,lide.z>...: ;
pie a,

because at the time of his guilty

At the tine petitioner plead guilty, the court was imbalanced

and intentionally complicated for a non-citizen, Hill \l Lockhard,
474 U.S. 52(1985) stated that a defendant "MUST" be informed of all
the circumstances surrounding his guilty plea in order for it to be
intellegently made,

and at the time of the petitioner's guilty plea

such right existed,

and Hill \l klitFskhard did not state that this only

applied to citizens, and that non-citizens did not have this same ri
Eidjht. In a criminal proceeding a non-citizen should had been able to
enjoy the same right as a citizen, the purpode of equal protection is
to secure every person within the states jurisdiction against intend
tional and arbitrary discrimination. Sonnier \l Quarterman, 4 76 F.3d
5.

349 ( 5th Cir.2007) .
I.

DID PETITIONER HAVE THE SAME RIGHT'S DURING HIS TRIAL ?
Did the Equal protection of the law stop during petitioner's

guilty plea because he was a non-citizen. Padilla'V Kentucky did t n h t
break neu laws to counsel requirment's, and as stated in a decenting opinion by Justice's Sotomayor, and Justice Ginsburg, Padilla
did nothing more then apply the existing urle of Strickland, and
that it was simply a garden -vAriety of Strickland V Washington ,466
U.S.66B(1 984) . The rule imposed by Strickland and Hill ,

does not

say that effective counsel during a plea proceeding apply "Unless
you are Mexican," the lau did bot discriminate, and this court has
made clear that it don't agree that every defendant does not have
the right to a fair trial, or effective,

also that unless you're

an amirican, your gfliilty plea do not have to be intellegently made.
In Hill V Lockhart, the court agreed that counsel have a duty to
inform his client of all the circumstances surround a plea offer.
The decision made in Chaidez deprives a defendant of his Sixth Anendant rfghtatbieffective counsel, and discriminates against a group
of defendant's based on race.
II .

DAS PETITIONER DENIED EQUAL PROTECTION OF THE LAU ?

Equal Protection of the lau is violated uhen governmental
actions such as the issue in question classifies or distinguishes
betueen tuo or more relevant persons or group,

or uhen classifi-

cation impermissible interferes uith a fundamental right, see
Mayabb V Johnson)16B F.3d 863(5th Cffc.1999)

It's clear the fecision

mede by the court in Chaidez singled out a particular group of
. !
ng i . die
6.

people
2 0 6 ( 5 th

resulting

in

disparate

treatment,

Cir . 201 1 ) : Qutb V 5trayuss,11

F.3d

lililson

\l Birnberg, 6 6 0

4BBfi$5th

F . 3d

Cir.1 993)

In Hill V Lokhart, this court applied the same two-part standard of
Stricland, which requires a defendant effective counsel at all stades .

This right was given to all defendants by the United States Con­

stitution. Looking at the fact's in this case it clear the lower
court feel that because a person in a non-citizen, he does not have
the same right's as the person next to him which is obnoxious.
There was nothing in Torres (petitioner) plea agreement that info­
rmed him of the fact that he would be deported as a re:suit of his
guilty plea. Had the immigration consequences been discussed he
would not have chosen to plead guilty.
This court has never made the distention between collateral, and
direct consequences of a guilty plea, so the question here is how
can the court make a claim that depation is collateral,

and not

direct. Such a claim can norb be made until a determination is made
as to whether there's a diferemce in the two. Teague does not apply
here in this case, because the di>senting Judges were correct by
determining that Padilla did mot creat a new rule, it was simply
a garden Variety of the Strickland, and did notmimpose any new rule.
Pecbitiopner is seeking a new trial, to return to the begining of
the proceeding, because if he had been informed by his counsel
that he would face deportation he never would have plead guilty.

7.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

21
Date:

/

Z/^Aod/

8

